No. 19-77

IN THE

'uprente Court of the Einiteb &tato
CARING FOR MONTANANS, INC. AND
HEALTH CARE SERVICE CORPORATION,
Petitioners,
v.
THE DEPOT, INC., UNION CLUB BAR, INC., AND TRAIL HEAD, INC.,
Respondents.

CERTIFICATE OF COMPLIANCE WITH RULE 33.1
As required by Supreme Court Rule 33.1(h), I certify that the Supplemental
Brief of Petitioners contains 1,898 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 18, 2019.

Anthony F. Shelley
Counsel of Record
Miller & Chevalier Chartered
900 Sixteenth St. NW
Washington, DC 20006
Telephone: 202-626-5800
Facsimile: 202-626-5801
E-mail: ashelley@milchev.com
Counsel for Petitioner Caring For
Montanans, Inc.

